                                  Closeout for M99110053

On November 11, 1999, a Program Director' informed us of correspondence he received
from a Dean2which alleged that an NSF PI3was in possession of certain equipment that did
not belong to him as the result of an expired loan agreement. The Program Director
forwarded the matter to us because the PI represented this equipment as essential to the
research goals of the award4under his direction.

The PI stated that he entered into the loan agreement with the Dean's institution, that he
needed the equipment specified in the loan agreement to f a d l his award obligations, that he
decided not to return this equipment, and that he was prepared to replace this equipment if
necessary.

We concluded (1 year into the award period) that there had been no significant changes to
the objectives or scope of the award as a result of the equipment dispute and that the PI had
not misrepresented his ability to access the equipment. However, we also noted, due to the
equipment dispute, that the PI'S uninterrupted access to such equipment over the remaining
lifetime of the award was not guaranteed.

We notified the Program Director of our conclusions and recommended that he contact the
PI and an appropriate official from the grantee institution5 and inform them of NSF's
expectations with respect to the PI'S equipment access6 The Program Director imparted
this expectation to both par tie^.^

This inqUi;Y is closed and no further action will be taken.

cc: Integrity, IG




4   Footnotes Redacted
5
6
7




                                          Page 1 of 1
